                            CLOSEOUT FOR M-93080043

       On August 3, 1993, OIG received a letter from the complainant,
            a student participant in the 4
                                                                                 -
                                                                                ' (the program) at
                                      (the institution). Under this program, the complainant was
             be a middle or high-school science teacher. Part of the program was a course in
which the complainant taught a class under a full-time teacher as a mentor, with other
administrators as observers. The complainant alleged that subject #1, 4
Director of the program (now deceased) misappropriated program funds. The complainante
further alleged that as a result of his reporting to subject #1 and a graduate school dean that
there were serious problems with the program, problems associated with inadequate supervision
by his teaching administrators, the following occurred: 1) subject #1 retaliated by refusing to
change or explain the complainant's final grade of "C" in a teacher training course that had been
assigned by his mentor teacher, a grade that prevented him from receiving teacher certification;
                                                      mentor teachert-
                                                           the complainant a final grade of C; and
3) subject #3,
                                                             treating him in a hostile fashion and




       OIG reviewed the information provided by the complainant. This included two letters
and a diary note of a telephone conversation. In the complainant's second letter to OIG, he
offered to provide us with documents and other information to support his allegations.

       OIG wrote to the complainant requesting the additional information. We specifically
requested clarification of the alleged misappropriation of funds, about which he had provided
no details, and any information he could furnish that related to the alleged retaliation. Over nine
months have passed and the complainant has not responded to our letter or our more recent
telephone call.

        Without specific information identifying the nature and extent of the alleged
misappropriation of program funds and of the alleged retaliation, OIG was unable to proceed
with its inquiry and therefore closed the case.

cc:    Senior Scientist, Deputy AIG-Oversight, AIG-Oversight, IG

                                           Page 1 of I
